1^5-834
IN THE
SUPREME COURT
OF THE UNITED STATES
WASHINGTON, D.C.
Mechele R. Parker, Petitioner

FILED
SEP 2 8 2021
l’up{?EEMEFCTOIJRTLnlc;K

Will

MECHELE R. PARKER,
Petitioner
v.

SARA LAROSA, ET ALs,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE DISTRICT OF COLUMBIA COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI
Mechele R. Parker
Pro Se Litigant of Record
MECHELE R. PARKER
1316 Fenwick Lane, Apt #606
Silver Spring, MD 20910
(910) 228-9178
SEPTEMBER 25, 2021

RECEIVED
SEP 3 0 2026
OFFICE OF THE CLERK
SUPREME COURT U.S.

QUESTIONS PRESENTED
What is the U.S. Supreme Court's Ruling On All Members To A Conspiracy?
Whether A Violation Of One's Fourth Amendment Rights By Sara LaRosa, et al,
Appellees, Co-Appellees, State, Federal, District Of Columbia Police Officers, Or Any Law
Enforcement Officers Can Give Rise To A Federal Cause Of Action For Damages For Unlawful
Searches And Seizures?
Whether the Judge Or The Superior Court Violates The Statute Of Law At Rule 65 For
Preliminary Injunction Or Injunctive Relief For Failure To Enjoin The Defendant's Against The
Injured Party To Prevent Hardship To A Party, And An Immediate Threat To The Party, General
Public Or Society?
Whether the Judge Or Superior Court Violates The Statute Of Law When Dismissing a
Rule 8(a), Short and Plain Statement Or A Statement In General That A Reasonable Or Prudent
Person Can Read And Make A Sound Decision About Who Suffered The Injury And Is Entitled
To Relief?
Whether The Judge Or Superior Court Violates The Statute Of Law When Dismissing A
Rule 12(b)(6) When There Is More Than A Mere Scintilla Of Evidence To Entitlement For
Relief That Is Plausible on Its Face?

IN THE SUPREME COURT OF THE UNITED STATES
WASHINGTON, D;C.
No. 19-CV-1253

*

MECHELE R. PARKER,

*

Petitioner,

*

V.

*

SARA LAROSA, ET ALs,

4=

*

Respondents.
*

*

*

CAB5601-19

*

*

*

4

*

*

4

*

4

*

RULE 29.6 STATEMENT
Appellant was represented in Superior Court and in the District of Columbia Court of
Appeals pro se.
Appellees was represented in Superior Court and the District of Columbia Court of
Appeals by Tiffany M. Releford and Erek L. Barron of Whiteford, Taylor & Preston L.L.P.
The Petitioner is not a nongovernmental corporation nor does the Petitioner have a parent
corporation or shares held by a publicly traded company. The opposing parties are neither
corporations nor partnerships.

MECHELE R. PARKER
Pro Se Litigant
1316 Fenwick Lane, Apt. 606
Silver Spring, MD 20910
(910) 228-9178
mecheleparker23 @ vahoo.com
Pro Se Litigant For Petitioner,
MECHELE R. PARKER

PARTIES TO THE PROCEEDING
All parties are listed in the caption.
RULE 29.6 STATEMENT
The petitioner is not a nongovernmental corporation nor does the petitioner have a parent
corporation or shares held by a publicly traded company.

TABLE OF CONTENTS
QUESTIONS PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL PROVISIONS INVOLVED
STATUTORY AND CONSTITUTIONAL AUTHORITY INVOLVED
STATEMENT OF THE CASE
STATEMENT OF FACTS
1. The Court Should Grant Certiorari To Clarify Whether Probable Cause/Viable Cause of
Action/Civil Cause of Action Was Wrongly Decided And Whether A Violation Of Ms. Parker's
Fourth Amendment Rights By Sara LaRosa, et al, Appellees, Co-Appellees, State, Federal,
District Of Columbia Police Officers, Or Any Law Enforcement Officers Can Give Rise To A
Federal Cause Of Action For Damages For Unlawful Searches And Seizures?
2. The Court Should Grant Certiorari To Clarify Whether Substantial Evidence In The Record
To Support the Claims For The Relief Sought Are Plausible On Its Face Under Rule 8(a) Short
And Plain Statement And Rule 12 (b)(6) Failure To State A Claim.
3. This Court Should Grant Certiorari To Clarify The U.S. Supreme Court’s Ruling On All
Members To A Conspiracy And The RICO Act.
REASON FOR GRANTING THE WRIT
CONCLUSION
APPENDIX

TABLE OF AUTHORITIES
CASES

PAGES

accord Atchison, Topeka & Santa Fe Ry. v. Buell, 480 U.S. 557, 568n.l5 (1987)..
Bell Atlantic v. Twombly, 550 U.S. 544, 555 (2207)
Bivens v. Six Unknown Named Agents, 403, U.S. 388 (1971)
Black v. D.C. Dep't of Human Servs., 188 A.3d 840, 847 (D.C. 2018)

passim

District of Columbia v. Minor, 740 A.2d 523, 529 (D.C. 1999) (cleaned up)
Epos. Tech., 636 F. Supp. 2d 57, 63 (D.D.C. 2009)
Illinois v. Gates, 462 U.S. 213, 238, 103, S. Ct. 2317, 76 L. Ed. 2d 527 (1982)
In re Est. of Curseen, 890, A.2d 191, 194 (D.C. 2006)

passim

Jefferson v. United States, 906 A.2d 885, 887 (D.C. 2006).
Logan v. Zimmerman Brush Co., 455, U.S. 422, 437 (1982)
Peterson v. Washington Teachers Union 192, A.3d 572, 575 (d.C. 2018)
Pinkerton v. United States, 328 U.S. 640 (1946)
Potomac Dev. Corp. v. District of Columbia, 28 A.3d531, 544-45 (D.C. 2011)...
Scott v. District of Columbia, 493 A.2d 319,323, (D.C. 1983)
Solers, Inc. v. Doe, 977 A.2d 941, 947 (D.C. 2009)
Swierkiewicz v. Sorema N.A., 534 U.S. 506, 512 (2002)
United States v. Rastelli, 870 F.2d 822, 828 (2d. Cir.), cert denied, 493 U.S. 982,
110 S. Ct. 515, 107 L. Ed. 2d 516 (1989)........................................ ......................
STATUTES
PAGES
28 U.S.C. § 1254- Courts of Appeals; Certiorari; Certified Questions
42 U.S. Code § 1983 - Civil Action for Deprivation of Rights..........
Title U.S.C. Section 241: Conspiracy Against Rights........................

Title 18 U.S.C., Section 242: Deprivation of Rights Under the Color of Law
RULES
PAGES
inter alia, Super. Ct. Civ. R 8(a)(2)

passim

Rule 9(b)........................................
Super Ct. Civ. R. 8(a)(2).
Super Ct. Civ. R 12(b)(6)
CONSTITUTIONAL PROVISIONS
PAGES
United States Constitution, Amendment IV
United States Constitution, Amendment V
United States Constitution, Amendment VI
United States Constitution, Amendment XIV
INDEX TO APPENDICES
PAGES
APPENDIX A (Memorandum Opinion and Judgment, decided May 18, 2021,
DC Court of Appeals).........................................................................................
APPENDIX B (Appellant Parker's Brief, dated August 25, 2020)
APPENDIX C (Appellant Parker's Reply Brief, dated October 26, 2020)
APPENDIX D (Petitioner Parker's Petition for Rehearing or Rehearing En Banc,
dated June 3, 2021).................................................................................................
APPENDIX E (Order Denying Ms. Parker's Petition for Rehearing, dated
July 19, 2021)..............................................................................................
APPENDIX F (Memorandum—Mechele Parker—Barring From All PBGC Sites,
dated May 28, 2009)..............................................................................................
APPENDIX G (Memorandum, Fitness for Duty Exam and Administrative Leave,
dated May 28, 2009)...............................................................................................

APPENDIX H (Merit Systems Protection Board 2009 Restoration Orders)..........
APPENDIX I (Merit Systems Protection Board 2009 Interim Relief Order).........
APPENDIX J (Memorandum dated January 31, 2013 re: Doe v. Pension Benefit
Guaranty Corporation MSPB Docket No. DC-0752-09-0881-C-l (re: Back-pay)..
APPENDIX K (Memorandum dated February 13, 2013 re: Doe v. Pension Benefit
Guaranty Corporation MSPB Docket No. DC-0752-09-0881-C-l (re: Back-pay)..
APPENDIX L (Standard Form-50 Removal, dated May 2011 (Ms. Parker)...........
APPENDIX M (Standard Form - 50 Correction (Ms. Parker)..................................
APPENDIX N (Mr. Scott Leeson Sroka's Pleading (Civil Action No. 17-0520 (EGS),
Page No. 1-2, 12).....................................................................................................
APPENDIX O (Same Day Process Service E-mail About Fair Notice (the Court Order,
Complaint, Summons, Info Sheet, and Attachments)..................................................
APPENDIX P (DC Metropolitan Police Officers At Scene—1200 K Street, NW,
Washington, DC)...................................................................................................
APPENDIX Q (Letter Of Intent To Sue—Mr. Simon Carney, Attorney—Brookfield
Properties Staff and Admiral Security Staff, dated July 5, 2019)..............................
APPENDIX R (Conspirators—Pension Benefit Guaranty Corporation's Office of
Inspector General Agents-Deborah Stover Springer and Aaron Jordan)..............
APPENDIX S (Conspirators—Vivian Easley Parker—AKA Mechele Parker,
Audrick Payne—PBGC Investigator, Richard Frank Oliver)......................... .
APPENDIX T (Community Service Program Fact Sheet For Out-of-State
Defendants-July 2016 and April 28, 2017 Memo Completion of Community
Service).............................................................................................................

PETITION FOR A WRIT OF CERTIORARI
Petitioner Mechele Rene’ Parker respectfully requests or prays the issuance of a writ of
certiorari to review the memorandum opinion and judgment of the United States Court of
Appeals for the District of Columbia below.
DECISIONS AND OPINIONS BELOW
The Superior Court of the District of Columbia dismissed and closed this case Mechele R.
Parker, Plaintiff v. Sara LaRosa, et al, Defendants, CAB5601-19 in favor of Defendants Sara
LaRosa, et als on November 27, 2019. The decisions of the United States Court of Appeals for
the District of Columbia is unpublished and was decided on May 18, 2021 per curiam in favor of
Sara LaRosa, et als and the petition for a rehearing or rehearing en banc was denied and ordered
per curiam in favor of Sara LaRosa, et als on July 19, 2021. This case is mandated. The orders
are attached as an Appendix.
STATEMENT OF JURISDICTION
The Superior Court for the District of Columbia dismissed and closed this case on
November 27, 2019. The Court of Appeals for the District of Columbia entered judgment on
May 18, 2021 and July 19, 2021. This Court’s jurisdiction is invoked under 28 U.S.C. § 1254,
having timely filed this petition for a writ of certiorari within ninety days of the United States
Supreme Court for the District of Columbia's judgment.
STATUTORY AND CONSTITUTIONAL AUTHORITY INVOLVED
42 U.S. Code § 1983 - Civil Action for Deprivation of Rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be considered to be a statute of the
District of Columbia.
Section 1983 provides
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party

injured in an action at law, suit in equity, or other proper proceeding for redress.
Title U.S.C. Section 241: Conspiracy Against Rights
If two or more persons conspire to injure, oppress, threaten, or intimidate any person in
any State, Territory, Commonwealth, Possession, or District in the free exercise or enjoyment of
any right or privilege secured to him by the Constitution or laws of the United States, or because
of his having so exercised the same;...
They shall be fined under this title or imprisoned not more than ten years, or both; and if death
results from the acts committed in violation of this section or if such acts include kidnapping or
an attempt to kidnap, aggravated sexual abuse or an attempt to commit aggravated sexual abuse,
or an attempt to kill, they shall be fined under this title or imprisoned for any term of years or for
life, or both, or may be sentenced to death.
Title 18 U.S.C., Section 242: Deprivation of Rights Under the Color of Law
Whoever, under color of any law, statute, ordinance, regulation, or custom, willfully
subjects any person in any State, Territory, Commonwealth, Possession, or District to the
deprivation of any rights, privileges, or immunities secured or protected by the Constitution or
laws of the United States,... shall be fined under this title or imprisoned not more than one year,
or both; and if bodily injury results from the acts committed in violation of this section or if such
acts include the use, attempted use, or threatened use of a dangerous weapon, explosives, or fire,
shall be fined under this title or imprisoned not more than ten years, or both; and if death results
from the acts committed in violation of this section or if such acts include kidnapping or an
attempt to kidnap, aggravated sexual abuse, or an attempt to commit aggravated sexual abuse, or
an attempt to kill, shall be fined under this title, or imprisoned for any term of years or for life, or
both, or may be sentenced to death.
United States Constitution, Amendment IV:
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be
subject for the same offense to be put twice in jeopardy of life or limb; nor shall be compelled in

any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.
United States Constitution, Amendment XIV:
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
On May 28, 2009, Mechele R. Parker was illegally barred from Brookfield Properties
located at 1200 K Street, NW, Washington, DC where Ms. Parker was employed at the Pension
Benefit Guaranty Corporation. Ms. Parker was wrongfully accused of threatening Management
and immediately fired after I blew the whistle in my disclosure about a prohibited personnel
practice regarding organized criminal activity.
In 2009 Ms. Parker won her Merit Systems Protection Board case. The Order states "I
Order the agency to cancel the suspension and retroactively restore appellant effective August 4,
2009. This action must be accomplished no later than 20 calendar days after the date this initial
decision becomes final. I Order the agency to pay appellant by check or through electronic funds
transfer for the appropriate amount of back pay, with interest and to adjust benefits with
appropriate credits and deductions in accordance with the Office of Personnel Management's
regulations no later than 60 calendar days after the date this initial decision becomes final... See
Appendix.
Ms. Parker received another 2009 MSPB Order to restore appellant effective November
9, 2009 having the same language as the August 4, 2009 Order. Ms. Parker also received an
Interim Relief Order "to effect the appellant’s appointment to the position of Administrative
Officer, GS-0341-13 while the petition is pending review.” See Appendix.
On May 8, 2011, Ms. Parker received one corrected SF-50 notification of personnel
action increasing my salary from $92,001 to $94,969 signed by Alzena Blythe for Arrie
Etheridge, Director of Human Resources. The PBGC is refusing to effect Ms. Parker's
outstanding salaries from 2009 to 2021 back to my former position as an Administrative Officer,
GS-0341-13 as Ordered. Ms. Parker has been waiting twelve years for a correct calculation of
my yearly income from the PBGC. Ms. Parker's yearly income does not reflect the corrected
salary of $94,969 as stated. My yearly income is $35,885.16 and monthly ($35,885.16/12 =

$2,990.43). See Appendix.
A hearing was scheduled with attendees Judith Starr, Agency Counsel, Scott Schwartz,
Agency Counsel, Stuart Bernsen, Union Representative, and Johnathan Axelrod, Counsel for Ms.
Parker but I was unable to attend and the hearing was not rescheduled. Mr. Bernsen mentioned
$300,000 PLUS to me and I told Mr. Bernsen that I would accept the $300,000PLUS as a partial
settlement until I get the rest that I had lost. Mr. Bernsen told me that I would have to get the rest
from the Equal Employment Opportunity Commission. The $300,000 PLUS contract that was in
the record disappeared. PBGC Counsels stated that it never existed.
In 2013, the Law Firm of Gary Gilbert in Silver Springs, MD took my case pro bono. The
case was mediated before Ms. Sara Reardon and arbitrated before Seymour Strongin. Mr. Gilbert
informed me that he was going to propose $700,000.00 as a form of settlement which did not
include all of my benefits lost, but when I asked about the settlement meeting the answer was we
are not at the settlement stage yet. Ms. Parker was accused of delaying the settlement process
which I was not.

r

A mediation session was scheduled with Ms. Sara Reardon and I attended along with my
Counsels, Mr. Gary Gilbert and Mr. Benjamin Wick and the PBGC's Counsels, Ms. Pamela
Richardson and Mr. Scott Schwartz. Mr. Gilbert let the attendees know that he very interested in
my case and that he had not ever seen someone go through such egregious acts as his client. Mr.
Wick informed the attendees that my client is owed a very large sum of money and that the
government knows what I am talking about. Mr. Schwartz apologized on behalf of the PBGC
and informed me that he could not even begin to tell me that I know how you feel because I
cannot. Ms. Parker was asked to leave the session by Ms. Reardon because she did not want to
say something that would upset me. Ms. Parker left the session. After the session, Mr. Wick
informed me that the settlement would not be $1,000,000.00.
A memorandum dated January 31, 2013 re: Doe v. Pension Benefit Guaranty
Corporation MSPB Docket No. DC-0752-09-0881 -C-l to Stuart Bernsen, Union representative
and representative to Ms. Parker, carbon copying Stephanie Herrera, Esq. an attorney at the Gary
Gilbert Law Firm in Silver Spring, MD was signed by Pamela Richardson, Agency Counsel for
the PBGC stating "The Pension Benefit Guaranty Corporation (PBGC) has determined that with
respect to the Petition for Review you filed in Doe v. Pension Benefit Guaranty Corporation
MSPB Docket No. DC-0752-09-0881-C-f it intends to withdraw its opposition to the relief
sought therein and to pay Doe back pay, benefits and interest to which she is due..." See
Appendix.
A memorandum dated February 13, 2013 re: Doe v. Pension Benefit Guaranty
Corporation MSPB Docket No. DC-0752-09-0881-C-l to Ms. Herrera was signed by Pamela S.
Richardson, Agency Counsel for PBGC. The memorandum states "As per our earlier attached

correspondence, enclosed herein is a check in the amount of $49,350 made payable to your
client..." See Appendix.
Ms. Parker received a contract with the signature lines for Ms. Stephanie Herrera,
Counsel for Ms. Mechele Parker, a line for my signature, and Mr. Scott Schwartz, Agency
Counsel with a threatening statement "take it or else" which I did not sign nor accepted the
offer. I believe the amount was either $15,000.00 or $50,000.00.
The documents listed are a preponderance of the evidence in Petitioner Parker's legal
records that provide a prima facie showing that the pleader is entitled to the relief sought and that
I am supposed to be back on active duty and made whole. Petitioner Parker is not back on active
duty and has not been made whole per the 2009 MSPB Order and a statement provided by Mr.
Scott Leeson Sroka, Counsel for the PBGC in his 2017 pleading that I am supposed to be back
on active duty with back pay.
Admiral Security employees and Brookfield Properties employees runs the same scheme.
Somewhere between 2009-2011, law enforcement officers from the District of Columbia's
Metropolitan Police Department were dispatched to the Brookfield Properties 1200 K Street,
NW, DC location charging Ms. Parker with a bogus unlawful entry crime via statements from
Admiral Security. Ms. Parker was ordered to appear in court and if I did not appear that a
warrant would be issued for my arrest. Ms. Parker went to court fearing a warrant for my arrest if
I did not show up. Ms. Parker informed the MPD officers that they were running a scheme and
getting me buried down in a bunch of government red tape that would take years to clear my
name. Ms. Parker was told by the MPD officer that I don’t know what you have gotten yourself
caught up in, but you are going to need a good attorney to get you out of it. Ms. Parker does not
have access to these court documents because her personal records were destroyed.
Ms. Parker appeared before Judge Susan Windfield at the District Court in Washington,
DC where I was charged with a felony and sentenced to twelve months to be served
consecutively. Ms. Parker appeared before Judge Karen House at the Superior Court for the
District of Columbia
where I was told that she--the Judge would have to look into the matter and get back with me
regarding the unlawful entry charge and the location of the incident. Ms. Parker informed Judge
Karen House that my issue is complicated. Judge Karen House never contacted me. Ms. Parker
does not have access to these court documents because her personal records were destroyed.
Ms. Parker was arrested, jailed overnight and often released late at night, and imprisoned
on multiple occasions for bogus charges-unlawful entry, kidnapping, shoplifting, and threats to
others. Ms. Parker appeared before Judge Milliken, Judge Wisecarver, Judge Reid and I believe
another judge whose name I do not recall. Ms. Parker was asked not to come into the district of
Columbia and to stay off the 1200 K Street, NW block. Ms. Parker was ordered to stay out of the

District of Columbia for a year. Ms. Parker does not have access to these court documents
because her personal records were destroyed.
I was ordered by Judge Reid to perform 48 hours of community service where Ms.
Latreece Johnson Wade a conspirator employed at the PBGC was allowed again to get away
with her illegal activity. Ms. Parker's Court appointed Counsel, Ms. Chantaye Redmond Reid
would not conduct a thorough investigation as I requested. Ms. Parker could not conduct an
investigation because I was incarcerated at St. Elizabeth's Hospital in Washington, DC where I
was sent to become competent, have better meals, better treatment, and better clothing and some
other prison in the district of Columbia. Ms. Parker had to take anti-psychological drugs ordered
by the court and suffered adverse side affects such as trembling, nervousness, excessive
drowziness, and memory loss. The medicine was doing the opposite of what I was informed that
the medicine would do—think with clarity or become competent to stand trial. See Appendix.
Ms. Parker was forced to take weekly urinalysis drug tests at the District Court because I
was accused of being a drug addict and an alcoholic. My urine was always clean, but my urine
was subjected to being tampered with to make it appear that my urine was unclear via a
conversation that I overheard at the intake desk. Ms. Parker does not have access to these court
documents because her personal records were destroyed.
Mechele R. Parker filed this Notice of Appeal on December 26, 2019 in the Superior
Court of the District of Columbia to be appealed in the United States Court of Appeals for the
District of Columbia seeking a reversal from the Superior Court of the District of Columbia for
failure to state a claim in a short and plain statement that the pleader is entitled to relief, and that
the Defendants, Sara LaRosa, et als were not being put on notice. See Appendix.
STATEMENT OF THE FACTS
In 2009, Ms. Parker received an Order from ALJ Elizabeth Bogle restoring me back to
my former employer the Pension Benefit Guaranty Corporation (PBGC) and my former position
as an Administrative Officer GS-13 in the Office of Information Technology, Resources
Management Division. The PBGC, PBGC Special Forces Officers, Brookfield Properties staff,
and Admiral Security staff were aware of the Order. Ms. Parker presented Sara LaRosa, et al,
Defendants/Appellees on a number of occasions with evidence of re-entry back to all PBGC sites
that was/is plausible on its face and most recently in August 2019. See Appellant's Brief dated
August 25, 2021 on page 10.
From 2009-2019, PBGC’s Special Forces Officers, Brookfield Properties staff, Admiral
Security staff, and the MPD police officers continued violating Ms. Parker's rights onto/into the
premises at 1200 K Street, NW, Washington, DC and 1275 K Street, NW, Washington, DC by
posting an 8 1/2 x 11 photograph of me in the building, falsifying barring notices, making false

arrests, threats of arrest, pat downs, staging bogus emergencies, illegal searches, questioning my
mental status, harassment, and making false accusations about an emergency that Ms. Parker
was/is an issue or threat. See Appellant's Brief dated August 25, 2021 on page 11.
Ms. Parker is still being accused of disturbing the peace and being involved in criminal
activity tied to Nigeria via Sara LaRosa, et al and their co-appellees. These are frivolous
accusations. Sara LaRosa, et al Defendants/Appellees will not and have not produced a mere
scintilla of evidence supporting their allegations. Defendants/Appellees defense is that
Plaintiff/Appellant Parker is an issue, a threat, causes an emergency, and drafting barring notices
in furtherance of their conspiracy. Sara LaRosa, et al, Defendants/Appellees have and will not
produce or provide Ms. Parker with evidence to support their claims or statements other than
issuing bogus barring notices for bogus arrests. See Appellant's Brief dated August 25, 2021 on
page 11.
In 2017, Mr. Sroka counsel for the PBGC stated in his pleading that Ms. Parker was
supposed to be on active duty with back-pay. Ms. Parker presented the statement made by Mr.
Sroka to the appellees and other evidence proving my statements were true and the documents
were plausible on its face. Ms. Parker placed a call to Mr. Sroka informing him about Sara
LaRosa, et als, Defendants/ Appellees conduct in violation of the 2009 MSPB Order restoring
me back to the PBGC and his statement stating the same. See Appellant's Brief dated August 25,
2021 on page 13.
In August 2019, when Ms. Parker came to the 1200 K Street, NW, Washington, DC
building to process my court Order, Sara LaRosa et al the Defendants/Appellees executed their
same routine orchestrating a bogus emergency at the 1200 K Street, NW, Washington, DC
location to gang-stalk Plaintiff/Appellant Parker where they co-conspired and participated in
aiding and abetting the original scheme that occurred on May 28, 2009 to continue in furtherance
of the conspiracy to organized criminal activity. See Appellant's Brief dated August 25, 2021 on
page 11.
Ms. Parker also asserted/averred a District of Columbia, state, and federal law claim(s)
for breach of contract and retaliation against the defendants, Sara LaRosa, et al for slander and
libel in falsifying bogus barring notices and for not fulfilling the contractual agreement in the
May 28, 2009 memorandum to have me escorted meaning protected throughout the 1200 K
Street, NW, Washington, DC building or all PBGC worksites knowing that I was/am a high
profile witness to a conspiracy crime and not arrested or threatened to be removed and arrested
upon the defendants being dispatched. See Appellant’s Brief.
REASONS FOR GRANTING THE PETITION
Petitioner Parker now seeks further review in this Court and offers the following reasons

why a writ of certiorari is warranted.
1. The Court Should Grant Certiorari To Clarify Whether Probable Cause/Viable Cause of
Action/Civil Cause of Action Was Wrongly Decided And Whether A Violation Of Ms.
Parker's Fourth Amendment Rights By Sara LaRosa, et ah Appellees, Co-Appellees, State,
Federal. District Of Columbia Police Officers, Or Any Law Enforcement Officers Can Give
Rise To A Federal Cause Of Action For Damages For Unlawful Searches And Seizures?
This Court should grant review in this case to see how the Court of Appeals for the
District of Columbia provided their application to the doctrine of probable cause. Probable cause
is the set of facts and information learned and discovered through investigation and inquiry that
lead a reasonably prudent person to conclude that an accused party committed an offense. That
offense may either warrant criminal prosecution of the accused person or the filing of a civil suit
or cause of action against him or her.
Appellees stated that quote "Neither Color of Law nor Probable Cause is a viable cause
of action." A viable cause of action is when you act upon what you said you would do.
Appellees—Defendants/Officers openly stated to Ms. Parker, Appellant-Plaintiff, that they were
going to arrest me, threatened to arrest me or have me removed from the building, and did arrest
me on multiple occasions without probable cause--or sufficient facts to do so. Appellees also
quote "Similarly, probable cause is a legal standard in the criminal realm (footnote 5); it is not a
civil cause of action citing Jefferson v. United States, 906 A.2d 885, 887 (D.C. 2006)."
Appellees also cited District of Columbia v. Minor, 740A.2d 523, 529 (D.C. 1999)
(cleaned up) in footnote 5 "An officer has probable cause to arrest an individual when she has
"reasonably trustworthy information... sufficient to warrant a reasonably prudent person" to
believe the suspect has "has committed or is committing an offense." Had Appellees read the
case in its entirety, they would have found that this was a civil action case for damages brought
against the District of Columbia officers under Section 42, 1983 Claims where there was no
probable cause to arrest Minor based on inconsistencies of an officer's trial testimony, deposition
testimony, his inability to attest to an informant's tip being credible and reliable, and his
testimony that "Kelsey himself as well as both experts indicated that they thought the radio run
was insufficient to arrest." A jury found Officer Kelsey liable under common-law claims of false
arrest and intentional infliction of emotional distress and under 42 U.S.C. § 1983 for unlawful
arrest in violation of Minor's Fourth Amendment rightsf 1] Minor was awarded both
compensatory damages and punitive damages. The Court affirmed.
"District of Columbia v. Minor, 740A.2d523, 529 (D.C. 1999).
It is of course true that probable cause may be based
on an informant's tip if the "totality-of-the-circumstances" provides
reason to believe that the tip is sufficiently reliable to justify the arrest.
See Illinois v. Gates, 462 U.S. 213, 238, 103 S. Ct. 2317, 76 L.

Ed. 2d 527 (1983). However, in this case, the officer who was
the main contact with the informant did not testify. Neither Officer
Hicks nor Officer Kelsey could attest to the informant's credibility
and reliability. Even the details of what was at best a rather generalized
radio run were in doubt. The only information as to what the radio
run actually contained came from Kelsey himself."
According to the probable cause testing at workplace testing.com it states that "While a
probable cause standard can be applied in both criminal and civil actions, most probable cause
questions arise in criminal cases. For instance, a police officer must have probable cause to
obtain a search warrant for someone's home or to make an arrest." See the Fourth Amendment
and Fourteenth Amendment. Therefore, Appellees statement conflicts with "probable cause"
being a civil cause of action in the civil realm. The assumption that more probable cause
questions arise in criminal cases does not exclude the probable cause questions that arise in civil
cases.
The Appellees, Sara LaRosa, et als knew that Ms. Parker was not committing an offense
based on the evidence in the record and evidence that was shown to the Appellees on multiple
occasions at the 1200 K Street, NW, Washington, DC location.
The Court of Appeals for the District of Columbia erred in stating that "Parker's
complaint fails to give the officers "fair notice" of what she claims. Ms. Parker paid the Same
Day Process Service—a process server—via email on September 9, 2019 to deliver to Sara
LaRosa, et als (Sara LaRosa, A. Brown, A. Brown, D. Collins, J.A. Mabry) five items: the Court
Order, Complaint, Summons, Info Sheet, and Attachments putting the Defendants on "fair
notice" of my claims. See Scott v. District of Columbia, 493 A.2d 319, 323, (D.C. 1983) and
Super. Ct. Civ R. 8(a)(2) "Unlike the WALES printout sheet in Woodward, supra, which gave
notice of the warrant’s invalidity, the printout here revealed no facial irregularity. Where a
WALES printout on its face reflects a validity issued warrant, a police officer has a good faith
reasonable basis to arrest the person who factually corresponds to the information given on the
WALES printout." Wherefore, where a Merit System Protection Board's "printout on its face
reflects a validity issued" Court Order, a party "has a good faith reasonable basis" to abide by
that which "factually corresponds to the information given on the" MSPB's printout. Ms. Parker
gave Sara LaRosa, et al an oral and written valid "fair notice" of my claims that was plausible on
its face to be admitted into all PBGC worksites.
Warrants are plausible oh its face and "are those orders issued by a court to a law
enforcer commanding them to fulfil a certain act. It commands the law enforcer to perform a
particular act in order to provide justice."
Court Orders are also plausible on its face and "is an order issuing from a competent
court that requires a party to do or abstain from doing a specified act."

Wherefore there is/was no probable cause for the District of Columbia Metropolitan
Police Department police officers, Admiral Security staff, and Brookfield Properties staff to
challenge my 2009 Court Order restoring me back to my former position at 1200 K Street, NW
Washington, DC and all other PBGC worksites. Ms. Parker had a right to process her papers—the
MSPB 2009 Order. Ms. Parker's Fourth Amendment rights were violated where it states "The
right of the people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
The District of Columbia Court of Appeal's quote "Finally, Parker argues the court
denied her due process by dismissing her suit without providing her an opportunity to contest
dismissal at an in-person hearing. It did not. Civil litigants are not "entitlefd]... to a hearing on
the merits in every case." Logan v. Zimmerman Brush Co., 455, U.S. 422, 437 (1982)..."
Appellant in Logan v. Zimmerman Brush Co., 455, U.S. 422, 437 (1982) "was deprived of a
protected property interest in violation of the Due Process Clause of the Fourteenth
Amendment." Appellant's case was reversed and remanded.
Ms. Parker "was deprived of a protected property interest in violation of the Due Process
Clause of the Fourteenth Amendment." Plaintiff was not allowed my right to a hearing at the first
onset of my complaint filed at the Superior Court for the District of Columbia. The District of
Columbia Court of Appeals affirmed the trial court’s ruling that there was no violation to my due
process rights. Ms. Parker did not waive her hearing privilege at the Superior Court for the
District of Columbia. Appellant Parker waived her oral argument hearing at the DC Court of
Appeals where she relied on the Court or Judges to make a sound decision based on all of the
records in the file with facial plausibility without a transcript.
2. The Court Should Grant Certiorari To Clarify Whether Substantial Evidence In The
Record To Support the Claims For The Relief Sought Are Plausible On Its Face Under
Rule 8(a) Short And Plain Statement And Rule 12 (b)(6) Failure To State A Claim,
"The Supreme Court has explained that a complaint need only “give the defendant fair
notice of what the plaintiff’s claim is and the grounds upon which it rests.” Swierkiewicz v.
Sorema N.A., 534 U.S. 506, 512 (2002); accord Atchison, Topeka & Santa Fe Ry. v. Buell, 480
U.S. 557, 568 n.15 (1987) (under Federal Rule 8, claimant has “no duty to set out all of the
relevant facts in his complaint”). “Specific facts are not necessary in a Complaint; instead, the
statement need only ‘give the defendant fair notice of what the ... claim is and the grounds upon
which it rests.’”
Epos Tech., 636 F. Supp.2d 57, 63 (D.D.C. 2009) (quoting Bell Atlantic v. Twombly, 550 U.S.
544, 555 (2007)). "Thus, the Federal Rules embody “notice pleading” and require only a concise
statement of the claim, rather than evidentiary facts."

The Court of Appeals for the District of Columbia affirmed Sara LaRosa, et als motion to
dismiss Appellant Parker's complaint for failure to state a claim and affirmed the trial court's
ruling that ("Since we take the facts alleged in the complaint as true, the presentation of
evidence...is not required.") Therefore, having taken Appellant Parker’s facts alleged in the
compliant as true even absent the evidence, the court concluded Parker failed to assert any
plausible claim for relief, a conclusion we agree with." See infra. "There was simply no question
of evidentiary sufficiency before the trial court; it made no factual findings that could be
undermined by any amount of evidence."
The District of Columbia Court of Appeal's affirmed that "to withstand a motion to
dismiss, a complaint must state sufficient facts to establish the elements of a plausible claim for
relief. Potomac Dev. Corp. v. District of Columbia, 28 A.3d 531, 544-45 (D.C. 2011); see also
Super. Ct. Civ. R. 12(b)(6). This court reviews de novo an order dismissing a complaint for
failure to meet that standard. Peterson v. Washington Teachers Union, 192 A.3d 572, 575 (D.C.
2018). In doing so, we accept as true all factual allegations in the original complaint and
"construe all facts and inferences in favor of the plaintiff." Solers, Inc. v. Doe, 977 A.2d 941, 947
(D.C. 2009).
The Court of Appeals for the District of Columbia affirmed that "the trial court correctly
held that Parker's complaint failed to state a claim upon which relief could be granted. Even
construing the pleadings liberally, as we do in this jurisdiction for pro se litigants, Black v. D. C.
Dep’t of Human Servs., 188A.3d 840, 847 (D.C. 2018), Parker's complaint fails to give the
officers "fair notice" of what she claims. See In re Est. ofCurseen, 890 A.2d 191, 194 (D.C.
2006) (complaint is sufficient if it contains a "short and plain statement" giving the defendant
"fair notice" of what the plaintiffs claim is and the grounds upon which it rests") (citing, inter
alia, Super. Ct. Civ. R. 8(a)(2)). Her complaint centers on five purported theories of liability,
most of which have no basis in law."
If "construing the pleadings liberally, as we do in this jurisdiction for pro se litigant's" is
true then the judges reasoning conflicts with Black v. D.C. Dep't of Human Servs., 188 A. 3d 840,
847 (D.C. 2018) where they state that "Parker's complaint fails to give the officers "fair notice"
of what she claims." "Liberally construing a pro se plaintiffs complaint means that "if the court
can reasonably read the pleadings to state a valid claim on which the plaintiff could prevail, it
should do so despite the plaintiffs failure to cite proper legal authority, his confusion of various
legal theories, his poor syntax and sentence construction, or his unfamiliarity with pleading
requirements." Appellees also cittin re Est. ofCurseen, 890 A.2d 191, 194 (D.C. 2006), and
inter alia, Super. Ct. Civ. R. 8(a)(2) as a defense to Parker’s failure to state a claim for relief and
provide the officers "fair notice."
"The Civil Action for Deprivation of Rights Act (42 USC Section 1983- Civil Action for

Deprivation of Rights) is commonly known as Section 1983. The purpose of the Act is to provide
a private remedy for violations of Federal Law. Section 1983 states: "Every person who under
color of any statute, ordinance, regulation custom or usage of any State or Territory or the
District of Columbia, subjects, or causes to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation of any rights, privileges or immunities
secured by the Constitution and laws, shall be liable to the party injured in an action at law, suit
in equity, or other proper proceeding for redress..."
3. This Court Should Grant Certiorari To Clarify The U.S. Supreme Court's Ruling On All
Members To A Conspiracy And The RICO Act
This Court states that "From Parker's pleadings, it is unclear which allegations pertain to
which individuals. Rather than who did what she lumps the officers together throughout the
complaint, referring to them collectively as "Defendants" and "Defendants/Officers." With
respect to the exception of LaRosa, see infra note 2, we follow course and refer to them as
"officers."
Ms. Parker responded that Appellant "lumps the officers together throughout the
complaint," because they are conspirators and co-conspirators in furtherance of organized
criminal activity. Even when referring to "them as "officers," rather than collectively as
"Defendants" and 'Defendants/Officers," each individual is responsible for his or her criminal or
civil act(s).
Appellant Parker in my opposition to dismiss plaintiffs complaint stated "Plaintiff Parker
identified the elements of a conspiracy executed at the 1200 K Street, NW, Washington, DC
location from 2008 forward and proved that: (1) two or more persons, (2) acted intentionally, (3)
to make an agreement(s), (4) to violate federal law or defraud the United States, and then (5)
committed some overt or covert act in furtherance of the agreement." "Plaintiff Parker cited Rule
9(b) for the who, what, when, where, and how about Sara LaRosa, et als misconduct involving a
conspiracy."
Under the RICO Act, all that must be shown is: (1) that the defendant agreed to commit
the substantive racketeering offense through agreeing to participate in two racketeering acts; (2)
that he knew the general status of the conspiracy; and (3) that he knew the conspiracy extended
beyond his individual role. See United States v. Rastelli, 870 F.2d 822, 828 (2d. Cir.), cert
denied, 493 U.S. 982, 110S. Ct. 515, 107 L. Ed. 2d 516 (1989).
Ms. Parker cited Pinkerton v. United States, 328 U.S. 640 (1946), where the US Supreme
Court ruled that all members of the conspiracy can be charged for crimes committed by their
co-conspirators that are within the scope of the conspiracy and are a reasonably foreseeable
consequences of the conspiracy...

Ms. Parker cited Bivens vs. Six Unknown Named Agents, 403 U.S. 388 (1971), was a case
in which the US Supreme Court ruled that an implied cause of action existed for an individual
whose Fourth Amendment freedom from unreasonable search and seizures had been violated by
the Federal Bureau of Narcotics. "A Section 1983 lawsuit is the right way to sue an official who
works for a state or local government, and a Bivens claim is the way someone can pursue a
federal official when that official has violated the person’s constitutional rights."
Wherefore when construing pleadings liberally, the District of Columbia Court of
Appeals should have known that Ms. Parker’s claims were implied under the Bivens claims, and
a civil cause of action under Section 1983, or 42 U.S.C. Section 1983.
The District of Columbia Court of Appeals and the Appellees, Sara LaRosa, et al also
stated the claims for relief that Appellant Parker prayed for—quote "She initially prayed for $1.5
million in damages from each defendant, but later claimed losses to a tune of $700 million. She
additionally seeks $1.7 billion in punitive damages."
Wherefore the Court of Appeal’s statement that "There was simply no question of
evidentiary sufficiency before the trial court; it made no factual findings that could be
undermined by any amount of evidence" is clearly erroneous and should be reversed when the
claims are supported by substantial evidence in the record.
Because the District of Columbia Court of Appeals did not properly apply probable cause
in violation of Ms. Parker's constitutional rights, causes of action, failure to state a claim where
relief can be granted, conspiracy, short and plain statement, and the RICO Act while construing
my case liberally as a pro se litigant, and reviewing my case de novo this Court's review is
warranted.
CONCLUSION
Ms. Mechele Parker, Petitioner respectfully prays that this Court issue a writ of certiorari
and that the petition for a writ of certiorari should be granted.
Respectfully submitted,

lbs
MECHELE R. PARKER
Pro Se Litigant (Petitioner)
MECHELE R. PARKER
Counsel of Record
1316 Fenwick Lane, Apt. 606
Silver Spring, MD 20910

(910) 228-9178
EMAIL: :mecheleparker23 @yahoo.com
Date:

